80-7589

$

IN THE
UNITED STATES SUPREME COURT
No.

FILED
FEB 0 1 2021
SCHEN7ISKY JAMES,
Petitioner

ryersus-

SHERMAN CAMPBELL,
(Previously)
COSTCE HORTON ,
(Previously),
KURT JONES
Respondents

PETITION FOR A WRIT OP CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

Scbenvisky James
Petitioner
4813 Devonshire Rd*
Detroit , Michigan 48224
(313) 946-7907
Sc^jgn*justiceiiaw@yahe©.cam

°MPPEMEFColffn-LMtS<

•uonsanb sip paaouSj 3:11103 rpopiispQ Sfl P^e aiBaas-pStew am

mimsmsmmi

HOd

• uopssnb 3UB}aoduj| sjq3 as/msue pjnoqs 301103 aueadng $n sfm,
*.’S3A,, paaaftsuB VOD 3 poop q39 sfl 9HL
i»*S3A„ {»J®asUb aanoo sop^sja Sft pue e3e-*3sp:$en sjqx.

3AVH SUJ3(EEX3Hd S,IHfl00 3W3HdAS Sfl SIHl SV aHflTNI HO TIIX QL iksetmt KV 3Hlflb3H
^ipw aw saoa aw aasvaDaa am anarm ho tiih ql iMaim aw ao aofcaaiAa os si anam
GT3Hdfl 30 QI NOLLOIAMD (3313330 PUg ao 3SI) H3QHflW AW HOd 3181SSOd II SI 'III
•uopssnb 3ue3aodurj sjqj aawsue pjnoqs 331103 areadng Sfl STHL
„*SaA„ paaaftsue V03 ajnoap 439 sfl »HL
.,*S3Ad paaawsuB

ixiqq

30|a3s*a pire s3ea3s-pSBw sqi

-Mg, —— —.........
£QV3H qasvaoaa am iv iohs amaania Nam aasY£)aa
am ao avaH am iv atid3Hiq had am aauaioa aw aawiv sawvr nawnTTnaa aaiaiisai
sassamiwaAa am omoNia AiayiaiLSATNA as saitowusai anooaH am ONUNasaadaHsiw
ONV T3MXJ,YJg§IH AT3STV3 T1V VCD IIADHID HL9 QNV IHAOD JDIHLSIG Sfl *3.iyH.T-STfiVM
nv svti Hivaa aasvaoaa am ivm onv ‘aasvaoaa am iv had am aaimoa
sawv^ aaNoiLLLaa aaiaiisai tova Aam ishm ‘cama svw iohs am n3hm nad
am QT3H sawvr HaNounad woh 3Nii,vHisM)W3a waHw ONmao wooh ihaod am (ravwnT. naTAiTna
snasNia hiam mm oaiaiisax nova Aam n3hm aasvaoaa am ao mvaa am oi sassamiwaAa
aanm atkio am ao ANcwusai snowiNVNfl am masandaHsiw ATaivnaanaa aw atinvivis ql
aaflonv srvaaav ao hadhid m9 onv asaor ihaod loinisia so *3Ivhisiovw TVdaaaa v si *11
*qo|^sanb 3UB3aodurp ejq3 aoAStiB pjnoqs 301103 amaadns sfl sjqx
,,’OHi, P»J«»saB VOD 3jna3p 439 Sfl »m
PI*s a^eaaspVBW $> ?anoo 30ia3sja sfl »qi

ismaaaDOHd ihaod aivxs am ao fJouoiasiHAr am aDicmvHD oi a^eanr aivis oi
iDsrafls KawosiHd aivis v aawonv moa Aam n3hm ssaiomwaw aaaaaNan Naas savh (9z.6i)
£C0S ID S 96 *S9t7 Sfl 82V TEWCd a 3N0LS ONV (V)(P)VS22 § DSfl 82 VdOaV-aHd ivm SHS3a
am 01 ihdih sfldHQo svaavH (2)6 § i aiDUHv NoufliusHoo sn am aaivaaDsiAa (i)(p)ys2z
^V4£HV)
isiHOHsai AnvN3d mvaa aAUDaaaa-UNv am svh ho sihdih iNawasawv
IIIA
NoufliusNco saivis aaiiNn sih ao kdiivioia v oi HaNomiad
am GajDarafls wouoiasiHOf ao hdvi * siHfloo aivis am sasanv (naNosiHd aivis)
Hatioimad am ai waiAan sfldHOD svaavH sHinna sowiaaaDoad ihaod aivxs 3Hi ni Tnajan
iVNOHDiasianr v ao aDNaHHflDDO am asivn oi naNosiHd aivis v noa aiaissiwaad 11 si *i

aaiNasaaa swoiisano

the US 6th Circuit COA ignored the question.
This US Supreme Court should answer the important question.
V. IN SPITE OF FARETTA v CALIFORNIA, 422 US 806; 95 S Ct 2525 (1975); MCDOWELL v US,
484 US 980; 108 S Ct 478 (1988) AND EVERY SINGLE US CIRCUIT COURT OF APPEALS ALL
MANDATING THAT IN ORDER FOR A WAIVER OF THE RIGHT TO ANY COUNSEL TO BE VALID THERE MJST
BE EVIDENCE OF AN IN COURT COLLOQUY BETWEEN THE COURT AND DEFENDANT OR APPELLANT AT THE
TO® OF THE WAIVER SHOWING THAT THE COURT WARNED THE DEFENDANT OR APPELLATE ABOUT THE
XRtTOISATONTAGES OF SELF REPRESENTATION, IS IT PERMISSIBLE FOR THE MAGISTRATE,
US DISTRICT COURT AND US 6TH CIRCUIT COA TO HOLD NO SUCH IN OPEN COURT COLLOQUY HAS TO
OCCUR BETWEEN THE COURT AND THE DEFENDANT OR APPELLANT AT THE TIME OF THE WAIVER
WHEREAT THE COURT IS WARNING THE DEFENDANT OR APPELLANT ABOUT THE DANGERS AND
DISADVANTAGES OF SELF REPRESENTATION AND THAT NO SUCH WARNING IS NECESSARY FOR THE
WAVIER TO BE VALID?
The Magistratye and US District Court answered "YES."
The US 6th Circuit COA answered "VES."
This US Supreme Court should answer the important question.
VI. IS A MAGISTRATE AND US DISTRICT COURT REQUIRED TO GIVE THE 28 USC § 2254(e)(1)
PRESUMPTION OF CORRECTNESS TO A STATE COURT JUDGE'S FINDING OF FACT WHEN THAT STATE
COURT JUDGE FOUND HE UNDERSTOOD PETITIONER JAMES WAS ONLY REPRESENTING HIMSELF IN PRO
PER FOR THE LIMITED PURPOSE OF A STATE COURT EVIDENTIARY HEARINGA/HABEAS CORPUS
PROCEEDING AND THAT' MKR.TEXT HEARING PETITIONER JAMES MAY WANT TO HAVE AN ATTORNEY
REPRESENT HIM DURING DURING THE APPEALS PROCESS IN THE COURT OF APPEALS?
The Magistrate and US District Court ignored this issue.
The US 6th Circuit COA did not address the issue.
This US Supreme Court should answer the important question.
VII. WHEN THE MICHIGAN SUPREME COURT MADE AN ADJUDICATION ON THE MERITS OF PETITIONER
JAMES' MOTION FOR APPOINTMENT OF APPELLATE COUNSEL BY DENYING THE APPOINTMENT OF
APPELLATE COUNSEL IS THE FEDERAL HABEAS CORPUS COURT AND MAGISTRATE PERMITTED TO
CONDUCT AN ALLEGED DE NOVO REVIEW AND FIND PETITIONER JAMES WAS NOT DENIED APPELLATE
COUNSEL AND THERE WAS NO CONSTITUTIONAL VIOLATION INSTEAD OF SIMPLY DETERMINING WHETHER
OR NOT THAT MICHIGAN SUPREME COURT ADJUDICATION ON THE MERITS WAS EITHER CONTRARY TO OR
AN UNREASONABLE APPLICATION OF DOUGLAS v CALIFORNIA, AS MANDATED BY THE PLAIN LANGUAGE
OF 28 USC § 2254(d)(1)?
The Magistrate and US District Court answered "YES."
The US 6th Circuit COA answered "YES."
This US Supreme Court should answer this important question.
■

VIII. IS IT UNCONSTITUTIONAL FOR ANY STATE TO CONCLUSIVELY PRESUME AN ESSENTIAL ELEMENT
OF ANY CRIME MERELY BECAUSE AN DANGEROUS WEAPON (GUN OR KNIFE) WAS INVOLVED, CAN MURDER
BE INFERRED FROM THE USE OF A DANGEROUS WEAPON?

The Magistrate and US District Court answered "YES."
The US 6th Circuit COA answered "YES."
This US Supreme Court should answer the important question.

?■

- .j.

LIST OF PARTIES
Schenvisky JAmes, the Petitioner, is an unconstitutionally convicted and sentenced
parolee, who was sent to prison by a Michigan trial court acting without jurisdictioaf
denied an Appeal by the Michigan Court of Appeals acting without jurisdiction, and
denied the reappointnent of an appellate counsel by the state trial court, Michigan
Court of Appeals and Michigan Supreme Court, then 'subsequently subjected to a
suspension of the writ of habeas corpus under the pretense of judicial authority and
denied habeas corpus relief based on fraudulent misrepresentation of three
eyewitnesses' testimsnies by the US magistrate, US District Court and 6th Circuit Court
of Appeals. Schoavisky James is presently on parole, temperarily residing at 4813
Devonshire Rd., Detroit, Michigan 48224.
Sherman Caapbell, Is the warden, (last custedtanef Petitioner James prior to
parole) at tha Michigan Department af Corrections Facility alluded to os the Adrian
Correctional Facility, 2727 E. Beecher St., Adrian, Michigan 49221
Connie Horton is the warden of the Chippewa (URF) Correctional Facility, 4269 M-80,
Kineheloe, Michigan * 49784, idle was the ^uatedian efPetitienerJames, prior to warden
Sherman Campbell.
Kurt Janes 1

the warden at the Carsen City Carrectienal Facility, at 10274 Beyer
r

Rd., Cgrson City, Michigan 48811 at the time Fetitienor Jams* filed his original habeas
carpus in 2001 in tha US District Csurt efWester* Michigan, and was tha custodian of
Itetitiomer James then.

TABLE OF CONTENTS
DECISIONS BELOW

1

JURISDICTION

1

CONSTITUTION AND STATUTORY PROVISIONS INVOLVED

2-3

STATEMENT OF CASE........................................

3-13

BASIS FOR GRANTING CERTIORARI

*

13-14

A. CONFLICT AMONG FEDERAL CIRCUIT COURTS OF APPEALS AND WHEIHER A WAIVER OF COUNSEL IS
BINDING TO THE DEGREE THAT THE DEFENDANT OR APPELLANT CAN NOT REASSESS THEIR EARLIER
DECISION AND THEN REASSERT THE CONSTITUTIONAL RIGHT
14
B. CONFLICT AMONG DIFFERENT PANELS OF THE SAME 6TH CIRCUIT COURT OF APPEALS ABOUT
WHETHER A WAIVER OF COUNSEL IS BINDING OR NOT ON THE DEFENDANT OR APPELLANT
14-15
C. CONFLICT AMONG THE US CIRCUIT COURT OF APPEALS ABOUT WHAT OONSTITOIES A VALID WAIVER
OF THE RIGHT TO AN APPELLATE COUNSEL
15-16
D. CONFLICT AMONG DIFFERENT PANELS OF THE 6TH CIRCUIT COURT OF APPEALS OVER WHAT
CONSTITUTES A VALID WAIVER OF THE RIGHT TO ANY COUNSEL
16
E. CONFLICT WITH THE UNITED STATES SUPREME COURT ABOUT WHAT CONSTITUTES A VALID WAIVER
OF THE RIGHT TO COUNSEL
16
F. CONFLICT BETWEEN THE 6TH CIRCUIT COURT OF APPEALS AND THE UNITED STATES SUPREME
COURT ABOUT WHETHER A HABEAS CORPUS PETITIONER CAN RAISE A STATE COURT'S LACK OF
JURISDICTION DURING HABEAS OORPUS PROCEEDINGS
16-18
G. CONFLICT BETWEEN THE 6TH CIRCUIT COURT OF APPEAL AND THE UNITED STATES SUPREME COURT
IN ITS INTERPRETATION OF 28 USC § 2254(d)(1) MEANING
18-19
H. CONFLICT WITH UNITED STATES CIRCUIT COURT OF APPEALS PRIOR PANELS IN THEIR
INTERPRETATION OF THE MEANING TO 28 USC § 2254(d)(1)
19-20
I * CONFLICT BETWEEN UNTIED STATES CIRCUIT COURTS OF APPEALS ABOUT HETHER A HABEAS
OORPUS COURT CAN MAKE ITS OWN CREDIBILITY DETERMINATIONS OF WITNESSES TESTIMONIES WHEN
IT EVALUATES AN INSUFFICIENCY OF THE EVIDENCE HABEAS CORPUS CLAIM
20
J» CONFLICT WITH THE UNITED STATES SUPREME COURT ABOUT WHETHER A HABEAS CORPUS
REVIEWING COURT IS ABLE TO MAKE ITS CWN CREDIBILITY DETERMINATION TO CONTRADICT THE
EYEWITNESSES TESTIMONIES
20-21
K. CONFLICT BETWEEN THE 6TH CIRCUIT COURT OF APPEALS AND THE UNITED STATES SUPREME
COURT ABOUT WHEIHER MALICE CAN BE INFERRED OR CONCLUSIVELY PRESUMED FROM THE USE OF A
DANGEROUS WEAPON
21
L. CONFLICT BETWEEN THE US 6TH CIRCUIT COURT OF APPEALS AND UNITED STATES SUPREME COURT
ABOUT WHAT CONSTITUTES SBOOND DEGREE MURDER AND WHETHER A STATE CAN CREATE A CONCLUSIVE
PRESUMPTION OF AN ESSENTIAL ELEMENT MALICE BASED ON CONDUCT THAT DOES NOT CONSTITUTES
21-23
MALICE

M .CONFLICT BETWEEN WHAT THIS 6TH CIRCUIT COURT OF APPEALS JUDGES DETERMINED AND WHAT
OTHER US 6TH CIRCUIT COURT OF APPEALS PANELS AND THE US SUPREME COURT DECISIONS ALL
HOLD ABOUT A STATE EXPERT WITNESS ONLY BEING ABLE TO GIVE AN OPINION IN THE FIELD HE OR
SHE HAS THE PARTICULAR SfllLL, KNOWLEDGE AND TRAINING IN
23-25
N. CONFLICT BETWEEN THE LOWER FEDERAL COURTS AND US SUPREME COURT OVER WHETHER A STATE
LEGISLATURE HAS AN OBLIGATION TO DEFINE EVERY ELEMENT OF A CRIME AND IT IS NEVER THE
JUDICIARY’S DUTY TO DEFINE THE ELEECNTS OF ANY CRIMINAL OFFENSE. ..........................25-27
O. A VERY IMPORTANT CONSTITUTIONAL QUESTION ABOUT MICHIGAN’S RELIANCE ON A STANDARDLESS
STATUTE MCL 750.317 AS THE BASIS FOR OBTAINING SECOND DEGREE MURDER CONVICTIONS WHEN
THAT STATUTE DOES NOT DESCRIBE OR DEFINE ONE SINGLE ELEMENT OF 2ND DEGREE MURDER..25-27
CONCLUSION

28-30

APPENDICES:
APPENDIX A ,

A.1-A.4

APPENDIX B

A.5-A.20

APPENDIX C

Jk.21-A.35

APPENDIX D

A.36-A.44

APPENDIX E

A.45-A.64

INDEX OF AUTHORITIES
United States Constitution
Article I § 9(2)

2,8

VI Amendment

...2,11,17

VIII Amendment

...2,19,17

XIII Amendment

...2,11,17

XIV

2,11,14,17
Federal Statutes

28 USC § 2243............................

8,30

28 USC § 2247........... .

8,30

28 USC § 2249..............

10

28 USC § 2254(b)(1) (B) (1) (It) (c)

3,8

28 USC § 2254(d)................

17

28 USC § 2254(d)(1)...................

12,18,19

28 U9C § 2254(d)(4) (5)..............

2,3

28 USC § 2254(e)(1)...................

12

Federal Rules Of Civil Procedures
FR Civ P. 10(c)...

8,30

FR Civ P. 60(b)(d)

10
Habeas Corpus Rules

HC R . 4

8,30
Federal Rules Of Evidence

FRE 702,

24
Federal Case Laws

Adams v Armontrout, 897 F2d 332 (8th Cir. 1990)............

8

Akins v Easterling, 648 F3d 380 (6th Cir. 2011).............

16

Almendarez-Torres v US, 523 US 224; 118 S Ct 1219 (1998)

27

i

Arbaugh v Y & H Corp, 546 US 500; 126 S Ct 1235 (2006).................................

18

Artuz v Bennett, 531 US 4; 121 S Ct 361 (2001)..............................................

3

Atlanta Richfield v Monarch Leasing Co., 84 F3d 204 (6th Cir. 1995).............

10

Bell v Cone, 535 US 685; 122 S Ct 1843 (2002)...............................................

18

Brecht v Abrahamson, 507 US 619; 113 S Ct 1710 (1993)...........................

26

Brown v Finnan, 598 F3d 416 (7th Cir. 2013).............................................. .

20

Brown v Runne, 630 F3d 62 (1st Cir. 2010).....................................................

19

Bunkley v Florida, 538 US 838; 123 S Ct 2020 (2003)......................................

22

Byrd v Workman, 645 F3d 1159 (10th Cir. 2011).................... ........................

20

Carmichael v Kuifco Tire Co., 526 US 137; 119 S Ct 1167 (1999)......................

23

Citizens For Better Environment v Steel Go., 523 US 81; 118 S Ct 1003 (1998)

18

Clark v Arizona, 548 US 735; 126 S Ct 406 (2006).........................................

27

Clark v Thaler, 675 F3d 525 (5th Cir. 2010)..................................................

19,20

Crandon v US, 494 US 152; 110 S Ct 997 (1990)...............................................

20,27

Daubert v Merrill Dow Pharmaceutical, 509 US 579; 113 S Ct 2876 (1993)........

23

Davis v Lafler, 601 F3d 525 (6tb Cir. 2011)..................................................

20

Dorn v Lafler, 601 F3d 439 (6th Cir. 2010).................................................. ........ 10,15
Doqglas v California, 372 US 535; 83 S Ct 814 (1963).............................. .

12,15,18,19

Duckworth v Serrano, 454 US 1; 102 S Ct 18 (1981).........................................

8

Duncan v US, 552 F3d 442 (6th Cir. 2009)............................ ........................

21

Lockyer v Andrade, 538 US 63; 123 S Ct 1167 (2003)........................................

18

Lowenfield v Phelps, 484 US 231; 108 S Ct 546 (1988)....................................

22,28

McDowell v US, 484 US 980; 108 S Ct 478 (1988)..............................................

16

McMillian v Pennsylvania, 477 US 79; 106 S Ct 2411 (1986).............................

26,27

Miller v Blackletter, 525 F3d 890 (9th Cir. 2008)................................. .

20

Montana v Egelhoff, 518 US 37; 116 S Ct 2k013 (1996)......................... ..........

27

Morgan v Henderson, 426 US 637; J96 S Ct 2253 (1976)......................................

23

ii

Pate v Robinson, 383 US 375; 84 S Ct 836 (1964)................ .

6

Patterson v Illinois, 487 US 285; 108 S Gt 2389 (1988)...........

16

Patterson v New York, 432 US 197; 97 S Ct 2319 (1977).............

27

Penson v Ohio, 488 US 75; 109 S Ct 346 (1988).........................

18

Robinson v Ignacio, 360 F3d 1044 (lltb Cir. 2004)...................

14

Rasario v Boole, 601 F3d 118 (2nd Cir. 2010)...........................

19

Rountree v Balicki, 640 F3d 530 (3rd Cir. 2011)......................

19

Ruhgas AG v Marathon Oil Go., 526 US 574; 119 S Ct 1563 (1999)

18

Sandstrom v Montana, 442 US 510; 99 S Ct 2450 (1979)..............

23,28

Schenvisky James v Kurt Jones, 05-6954....................................

9

Schenvisky James v Kurt Jones, 04-2221......................... ..........

9

Scott v McNeal, 154 US 34; 14 S Ct 1108 (1894)........ ...............

18

Skilling v US, 561 US 238; 130 S Ct 2895 (2010)......................

26,27

Stoith v Robbins, 528 US 259; 120 S Ct 746 (2000).....................

19

Snook v Wood, 89 F3d 605 (9th Cir. 1996).................................

15

Stone v Powell, 428 US 456; 96 S Ct 3037 (1976)......................

17

Sumer v Mata II, 455 US 591; 102 S Ct 1303 (1982)..................

17

Tanner v Yukins, 887 F3d 661 (6th Cir. 2017).........................

21

Thompson v Keohane, 516 US 99; 116 S Ct 457 (1995)..................

17

United States v Balough, 820 F2d 1485 (9th Cir. 1987)............. .

15

United States v Cadles-Lune, 632 F3d 731 (1st Cir. 2011)........

11

United States v Cotton, 535 US 625; 122 S Ct 1781 (2002)........

18

United States v Fazzini, 871 F2d 635 (7th Cir. 1989).............. .

14

United States v Frady, 454 US 152; 102 S Ct 1584 (1982)...........

23,28

United States v Gooch, 850 F3d 286 (6th Cir. 2017)...................

16

United States v Holmen, 586 F2d 322 (4th Cir. 1978).............. .

14

United States v Jones, 452 US 223 (3rd Cir. 2006)..................

15

iii

United States v Kerr, 752 F3d 206 (2nd Cir. 2014).............

14

United States v Kizzie, 150 F3d 497 (5th dr. 1998).......

15

United States v Kneeland, 148 F3d 6 (1st. dr. 1998)........

14

United States v Leveto, 540 F3d 200 (3rd dr. 2008)..........

14

United States v Lombardo, 241 US 73; 36 S Ct 508 (1915)...

3

United States v Lopez, 514 US 549; 115 S Ct 1624 (1995)...

26

United States v McDowell, 814 F2d 245 (6th dr. 1987).......

16

United States v Pollani, 146 F3d 269 (5th Cir. 1998)........

14

United States v Proctor, 166 F3d 396 (1st dr. 1999)........

14

United States v Russell, 109 F3d 552 (6th Cir. 1999)........

20

United States v Talley, 164 F3d 989 (9th dr. 1999)..........

20

United States v Williams, 553 US 285; 128 S Ct 1830 (2008)

26

Vachon v New Hampshire, 414 US 478; 94 S Ct 664 (1974)....

22

Von Moltke v Gillies, 332 US 708; 68 S Ct 316 (1948)........

16

Williams v Taylor, 529 US 362; 120 S Ct 1495 (2000)..........

18

Yates v Aiken, 484 US 211; 108 S Ct 534 (1988)..................

21

Zerbst v Johnson, 304 US 458; 58 S Ct 1019 (1938).............

18

Michigan Statutes
MCL 600.571(g)

3

MCL 750.317...

3,26,27

MCL 750.329

23
Michigan Court Rules

MCR 6.500(D)(E)...

4,6

MCR 6.500........ .

5,9

MCR 6.502(G)(1)(2)

9

MCR 8.119(C)(D)...

3
Michigan Case Law

iv

People v Anderson, 398 Mich 361 (1976)..

4,6

People v Curtis, 389 Mich 698 (1973)....

3

People v Doss, 406 Mich 90 (1980)..........

23

People v Duggan, 115 Mich App 269 (1982)

23

People v Heflin, 434 Midi 482 (1990)....

23

People v Scbenvisky James, 96-000912....

5

People v Smith, 478 Mich 64 (2009)........

23

People v Wade, 283 Mich App 462 (2009)..

23

Sweet v Gibson, 123 Mich 699 (1900).......

3

Tiedman v Tiedman, 400 Mich 571 (1977)..

10

Michigan Rules of Evidence
MRE 702

24
t

v

► 4

IN THE
SUPREME COURT OF THE UNITED STATES
No.

SCHENVISKY JAMES,
Petitioner

-against-

SHERMAN CAMPBELL
(Previously)
CONNIE HORTON
(Previously)
KURT JONES,
Respondents.

PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SDOH CIRCUIT
•*

DECISIONS BELOW
The decision of the US Sixth Circuit Court of Appeal, for the Rehearing and
Suggestion For Rehearing En Banc was entered on November 13 , 2020 and it is
accompanying the Petition as A.l in the Appendix A. The order denying Petitioner James
a Certificate of Appealability on September 17 , 2020 is accompanying the Petition as
A.2 in the Appendix A. The March 18, 2020 order of the United States District Court
for the Western District of Michigan denying habeas corpus relief and merely adopting
the magistrate Report and. Recommendation (R&R) is accompanying this Petition and
appears in the Appendix A as A.3. The Magistrate July 9, 2019 R & R is accompanying
the Petition and appears in the Appendix A as A.4.
JURISDICTION
The judgment or order of the United States Court of Appeals for the Sixth Circuit
was entered on November 13 , 2020, which was an ORDER denying Petitioner James'
Petition for Rehearing with Suggestion For Rehearing Eh Banc, conferred jurisdiction
on this United States Supreme Court pursuant to 28 USC § 2101; S Ct. R. 10
1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
This case involves Article I § 9(2), the VI, VIII, XIII and XIV Amendments to the
United States Constitution which provides in seriatim and pertinent part:
ARTICLE I § 9(2)
'*Ihe Privilege of the Writ of Habeas Corpus shall not be suspended,
unless when in Cases of Rebellion or Invasion the public Safety may
require it•
VI AMENDMENT
In all criminal prosecutions, the accused shall enjoy the right to a
speedy trial and public trial, by an impartial jury of the
State •••Wherein the crime shall have been committed • • • ”
VIII AMENDMENT
"Excessive bail shall not be required..*nor cruel and unusual
punishments inflicted."
XIII AMENDMENT
"Neither slavery nor involuntary servitude, except as a punishment
for crime ^Whereof the party shall have been duly convicted, shall
exist within the United States, or any place subject to their
jurisdiction "
XIV AhiiaWflaiiNT

k°rn or naturalized in the United States and subject to
the jurisdiction thereof, are Citizens of the United States and of
the State wherein they reside. No State shall...deprive any person of
life, liberty, or property without due process of law; nor deny to
any person within its jurisdiction the equal protection of the laws."
In addition this case involves the language of pre-AEDPA Habeas Corpus Statute 28
USC § 2254(d)(4)(5), which stated in pertinent part:
*In any proceeding instituted in a Federal court by an application
for a writ of HABEAS. CORPUS by a person in custody pursuant to the
judgment of a State court...made by a State court of competent
jurlMletloii in a proceeding to which the applicant for the writ and
traa State...were parties, evidenced by a written finding, written
opinion, or other reliable and adequate written indicia, shall be
presumed to be correct, unless the applicant shall establish or it
shall otherwise appear • • •
I
that the state court lacked jurisdiction of the subject matter or
th1 iheateteDcurcoujiaii is A.b and it appears in Appendix B.
2

over the person of the applicant in the State court proceedings
(5) that the applicant was an indigent and the State court, in
deprivation of his constitutional right, failed to appoint counsel to
represent him in the State court proceedings.'.."
This case involves the language of the AEDPA Habeas Corpus statute 28 USC §§
2254(b)(1)(B)(i)(ii)(c), which states in pertinent part:

An application for a writ of habeas corpus on behalf of a person in
custody pursuant to the judgment of a State court shall not be
granted unless it appears that—
(B)(i) there is an absence of available State corrective process; or
(ii) circumstances exist that render such process ineffective to
protect the rights of the applicant.
---------------(c)An applicant shall not be deemed to have exhausted the remedies
available in the courts of the State...if he has the right under the
law of tire State to raise, by any available procedure, the question
presented.
This case also involves the language of the Unconstitutional Michigan Second Degree
Murder Statute MCL 750.317; MSA 28.548, vhich states in pertinent part:
''SECOND DEGREE MURDER—All other kinds of murder shall be murder of
the second degree, and shall be punished by imprisonment in the state
prison for life, or any term of years, in the discretion of the court
trying the same."
STATEMENT OF THE CASE
Petitioner Schenvisky James was bound over for trial by a Michigan 36th District
Court to a Michigan Circuit Court on January 25, 1996 without a probable cause
determination made, without a properly filed or proper return.* Petitioner Schenvisky
James was put on trial without the felony information being filed. Consequently, in the
Recorders Court of Detroit (Now the 3rd Judicial Circuit Court of Wayne County)
Itetitiongr ^ame^ vas
on trial, prosecuted, convicted and sentenced by a trial court
tn fa roM
the Felcry inranretion I'ft. 7) and the Notice Of EjtwxaiHTt (A.8) appear in Appendix B end
^ “SuE**1* fUed P ^ tBnn ^ !reant by this US Supreme Court in US v Lonbardo, 241 US 73, 76: 36
s. ^ 508 (1916) or Artuz v Barnett, 531 US 4; 121 S Ct 361, 364 (2001); Michigan's Supreme Court in Sweet v
Gibecn^123 Mich &9 (1900); ICR 8.119(C) (D) and Ml! 600.571(g). The jurisdiction of any Michigan Circuit Cburt
. is a Property frted RETURN and Felony Information. Ffaople v Curtis, 389 Mich 698 (1973); Intend v Tinis. 893
F. Supp 724, 727 (E.D. Mich. 1995).
*
3

acting without jurisdiction in the matter People v Schenvisky James, 96-000912-PC.
During the trial proceedings the prosecution endorsed and called the three
eyewitnesses to the January 1, 1996 accidental death of the deceased* Namely Deborah
Sanders, Corrine Cooks and George Sullivan. Each of those eyewitnesses testified under
oath that at no time did Petitioner James ever point or aim the gun at the deceased
(Albert David Kendricks), but instead fired one shot at the ceiling of Petitioner
James' house instead of at the deceased and what they witnessed was an accident that
caused the decease's death. NOTE: Those testimonies are accompanying the certiorari and
appear in the Appendix B as A.9, A.10, A.ll. Each eyewitness testified with their
finger pointed toward the court room ceiling When demonstrating how Petitioner James
held the gun when the one shot was fired. See: A.12 in Appendix B. Petitioner James
testified to never pointing the gun at the deceased but only firing one shot at the
ceiling. See, A. 13 contained in Appendix B. A jury convicted Petitioner James of 2nd
Degree murder despite adnitting they believed the three eyewitnesses' testimonies and
didn't believe Petitioner James intended the deceased be killed or harmed by firing a
shot in the ceiling, but were convicting Petitioner James for undisclosed reasons. See
A.14, A.15 in Appendix B
Petitioner James appealed and was appointed an appellate attorney. Petitioner James
and the appointed appellate attorney had a breakdown in the attorney/client
relationship. The appellate attorney withdrew on April 30, 1997. See A.16 in Appendix
B. Petitioner Jones wrote a couple of letters to the chief judge expressing his
dissatisfaction with the appellate counsel and requested to proceed in pro per on April
4, 1997. On June 20, 1997, without any Faretta v California, 422 US 806 ; 95 S Ct 2525
(1975); People v Anderson, 398 Mich 361 (1976); MCR 6.005(D)(E) compliance, each
mandating an in court warning about the dangers of self representation record be
developed in and by the 3rd Circuit Court of Wayne County before allowing any waiver of
counsel at anytime, an ORDER was entered for Petitioner James to proceed in propria
4

persona. See, A.17 in Appendix B. Despite appellate counsel's withdrawal on April X,
1997 Petitioner James was left without an appellate counsel from April X, 1997
throughout the entire appellate process until March 12, 1999 in spite of United States
v Ross, 703 F3d 856 (6th Cir. 2012) specifically holding the appellate counsel must
remain until an in court warning waiver record has been created in the trial court. At
no time prior to March 12, 1999 was Petitioner James remanded to the trial court to
determine if Petitioner Janes was waiving the right to appellate counsel knowingly,
intelligently and voluntarily or to determine if Petitioner James was even competent on
the date of June 20, 1997.
Petitioner James then proceeded to file an interlocutory motion for records
correction due to altered transcripts and a missing 5/22/% transcript. The motion for
records correction and the rehearing motion were denied by a 2 to 1 margin in the
Michigan Gourt of Appeals case People v Schenvisky James, %-000912. A.18, A.19
Appendix B. Petitioner James simultaneously during interlocutory appeals appealed the
Michigan Gourt of Appeals denials of the records correction motion in the Michigan
Supreme Court. That Motion was denied by a 4 to 2 margin. See, A.20. Appendix B. The
motion for records correction was based on the forged court reporter signatures
Compare A.21 vs A.22; A.23 vs . A.24 Appendix C) and other inconsistency or documentary
contradictions. See, A.25 vs A.26, A.27 and A.28 vs A.29 along with 2 separate versions
of Sentencing Transcript page 14. See, A.30 vs A.31.
Petitioner James simultaneously filed a MCR 2.612 motion for relief from judgment
in the trial court based on a void judgment, insufficient evidence, ineffective
assistance of counsel, prosecutorial misconduct and newly discovered evidence. That MCR
2.612 motion for relief from judgment was interpreted as a MCR 6.500 MOTION FOR RELIEF
FROM JUDGMENT and subsequently denied on 12/28/98. A.32 in Appendix C.
Petitioner James then filed in the Michigan Gourt of Appeals claims challenging the
trial court's jurisdiction, a conviction based on the trial court supplemental
5

instruction constituting a direct verdict of guilt from the bench in substantive effect
(See, A.33 Appendix C), insufficient evidence, ineffective assistance of counsel,
prosecutorial misconduct based on injection of false bad man character, other uncharged
crimes speculated about by the prosecutions, who elicited by innuendo from eyewitnesses
Petitioner James was involved in other crimes for which he was not charged. Based on
Petitioner James* documented proofs of newly discovered evidence, in February of 1999
the Michigan Court of Appeals remanded Petitioner Janes' case back to the trial court
based on that newly discovered evidence claim and ineffective assistance of counsel.
See, A.34 in Appendix C.
Petitioner James was remanded to the 3rd Circuit Court of Wayne County circa March
12, 1999. From April 23, 1999 - July 22, 1999 Petitioner James was in the 3rd Circuit
Court of Wayne County. Whereat Petitioner James raised a challenge to the trial court's
lack of jurisdiction and the void July 9, 1996 judgment entered by a trial court
without jurisdiction, while continuing to challenge the insufficiency of the evidence
to sustain a 2d Degree Murder conviction due to the absence of any proof of malice,
while protesting the Michigan Court of Appeal's refusal to rule on the void judgment
issue and insufficient evidence issue.
At the evidentiary bearing/State habeas proceedings from March 12, 1999 - July 22,
1999 Petitioner James in pro per challenged the trial court's lack of jurisdiction and
the void judgment. During these evidentiary hearing and state habeas proceedings (which
was two years after the 6/20/97 ORDER to proceed on appeal in propria persona [A.17]
was entered) is the only time the trial court precisely and correctly followed the
Faretta v California, 422 US 806; 95 S Ct 2525 (1975); People v Anderson, 398 Mich 361
(1976); MCR 6.005(D)(E) procedure of developing an in court record warning Petitioner
James about the dangers and disadvantages of self representation during appeal and
complied with the Pate v Robinson, 383 US 375; 84 S Ct 836 (1964) procedures of
conducting a psychiatric evaluation to determine whether Petitioner James was competent
6

enough to waive the right to appellate counsel.
However, though the trial court followed the correct procedures and developed the
record by giving Petitioner Janes the mandated Faretta warnings the trial court also
stated that it was understood that Petitioner James was only waiving the right to an
appellate counsel for the limited purposes of those State court evidentiary
hearings/habeas corpus proceedings, but might would be seeking another appellate
counsel after those proceedings to conduct and handle the appeals process in the
Michigan Court of Appeals. See the colloquy between Petitioner James and the trial
court marked here as A..35 in Appendix C.
At the conclusion of those March 12, 1999 - July 22, 1999 State court habeas
corpus/Evidentiary Hearings, Petitioner James then proceeded to seek an appellate
counsel by first requesting the appointment of an appellate counsel twice in the the
3rd Circuit Court of Wayne County [to which there was no answer] and then in the
Michigan Court of Appeal by filing a motion there for appointment of an appellate
counsel and in the Michigan Supreme Court for an appellate counsel. The Michigan Court
of Appeals clerk refused to place the motion for appointment of appellate counsel
before the Michigan Court of Appeals Chief Judge and/or panels, then took it upon
herself to direct Petitioner James back to the trial court after Petitioner James had
already sought an appellate counsel in the trial court on August 19 , 20, 1999 but was
not answered. See, A.36 - A.41, in Appendix D. In addition Petitioner James was
unreasonably ORDERED to file a brief regardless to Petitioner James not having an
appellate counsel and transcripts from the State evidentiary hearing/habeas corpus
proceedings that were needed for the appeal had not been transcribed or prepared yet.
Petitioner James* appeal was then dismissed based on his failure to file a brief. A
rehearing was denied. A.42, A.43 in Appendix D. Petitioner James then appealed to the
Michigan Supreme Court and filed a motion there for appointment of appellate counsel.
On June 26 , 2000 the Michigan Supreme Court denied the motion for appointment of
7

appellate counsel during direct appeal. A.44 in Appendix D.
On June 28 , 2001 Petitioner James timely filed a 28 USC § 2254 habeas corpus
petition that contained a brief statement of each habeas issue, three affidavits (each
probative of two habeas corpus issues, further sepporting it with a 35 page STATEMENT
OF FACT, in a 100 page brief, along with 115 habeas corpus Rule 4, 28 USC § 2247; FR
Civ P. 10(c) habeas corpus issues supporting Exhibits in the US District Court of
Western Michigan case Schenvisky James v Kurt Jones, 4:01-cv-098.
On July 16, 2001 the Magistrate entered an ORDER and unreasonably returned the
petition by alleging Petitioner James' pleadings were insufficient because they lacked
a statement of fact. The magistrate illogically relied on the 8th Circuit Court of
Appeals' holding in Adams v Armontrout, 897 F2d 332 (8th Cir. 1990)3 as the basis for
the ORDER. Petitioner James complied by merely re-labelling the habeas corpus petition
as an Amended Habeas Corpus petition and resubmitted the petition. However, the 115 HC
R. 4; 28 USC § 2247; FR Civ P. 10(c) probative exhibits were removed from the file and
a hand written notation was made on the docket entry sheet of the US District Court
Western District of Michigan that those exhibits "WERE MISSING" from

the file. See,

A.45, in Appendix E.
Finally, after a three (3) and half (1/2) year delay4 the Magistrate on 7/28/2004
entered a Stay and Obey Report & Recommendation (R&R) in spite of Petitioner James
presenting A.32, Appendix D to the Magistrate. Petitioner James objected, in light of
28 USC § 2254(b)(l)(B)(i)(ii)(c) language, the futility doctrine of the US Supreme
Court's Duckworth v Serrano, 454 US 1; 102 S Ct 18 (1981) and the State of Michigan •s
In Mam v fawjhUuit,
Vm sst (Uot lit. 1933) is not only an 8th Circuit Court of Appeals decisions,
it irwolvad a habeas petitioner uho macfe no statement of facts, supplied no independent habeas oarpus
brief ar HC R. 4, 28 USC § 2247; FR Civ P. 10(c) issues oorraboretius Exhibits as fletitionar James did,
uhich rendered its application illogical end inappropriate.
(j

■

.

—

,TI ■

■

I

' •

/ •

'

-

■

_

fn' SigiifiCcfitly the word stay and cfelay are synonymous with the ward suspend as that term in used the US
Constitution Article I § 9(2) and brings into issue the meaning of 28 iSTf S3.

8

resolute and strict adherence to MCR 6.502(G)(l)(2) barring a second or successive MCR
6.500 Motion For Relief From Judgment under Petitioner James* circumstance of having
already filed one such motion. See, A.46, in Appendix E. Petitioner James filed
multiple objections to the R&R stay and obey R&R ORDER. But the US District Gourt
entered an ORDER upholding the R & R and insisting Petitioner James comply with the
stay and obey R&R ORDER and submit a 2nd MCR 6.500 Motion for Relief from Judgment
without any newly discovered evidence. See, A.47, Appendix E. The motion for rehearing
or to amend the order was denied by the US District Court 11/10/04. A.48, Appendix E.
Notably in regards to A.48 an INJUNCTION AND ORDER regarding all future pleadings of
Petitioner James and that injunction and order was not modified until March 14, 2017.
Petitioner James' motion for discovery and inspection of records with sundry other
motions were denied by the magistrate in a perfunctory manner and US District court
judge.
Petitioner James appealed the US District Court order upholding the magistrate R&R
to the US Sixth Circuit Court of Appeals, in Scbenvisky Janes v Kurt Jones, 04-2221.
All subsequent appeals to the US Sixth Circuit Court of Appeals were denied including a
Petition For Rehearing with Suggestion For Rehearing En Banc. See, A.49 and A.50 in
Appendix E. Petitioner James filed a certiorari in the US Supreme Court case Schenvisky
James v Kurt Jones, 05-6954 on 11/2/2005. That certiorari was denied by the US Supreme
Court on 1/26/06. Consequently Petitioner James was left in a state of limbo, where he
had to find newly discovered evidence in order to comply with the stay and obey order.
This put Petitioner James on a 10 year hiatus and exhaustive mission of trying to find
newly discovered evidence, but to no avail. Petitioner James now at his point of acme
with the entire situation tried to file the successive or second MCR 6.500 MOTION FOR
RELIEF FROM JUDGMENT that he contended he could not file because of the futility
doctrine.
The State court successor to the successor Judge entered an order denying
9

Petitioner James' MCR 6.500 MOTION FOR RELIEF FROM JUDGMENT and stated Petitioner James
could not file a successive MCR 6.500 MOTION FOR RELIEF FROM JUDGMENT and was barred
from doing so. A.51 in Appendix E. Petitioner James filed a FR Civ P. 60(b)(d) MOTION
FOR RELIEF FROM JUDGMENT on the basis of fraud on the court and the Petitioner by the
Respondent in two regards. The first fraud appeared when the Respondent attempted to
fob off A.52, in Appendix E as a xerox copy exact duplicate of A.53, in Appendix E^.
The second fraudulent misrepresentation of the Respondent occurred when the Respondent
asserted Petitioner James had the ability to raise issues in the MCR 6.500 MOTION FOR
RELIEF FROM JUDGMENT when Respondent knew Petitioner Janes could not file a successive
MCR 6.500 MOTION FOR RELIEF FROM JUDGMENT. Consequently, the US District Court entered
an order on March 10, 2017 an ORDER reopening the case US District Court case
Schenvisky Janes v Kurt Jones, 4:01-cv-098 therein ORDERING

the Respondent to respond

to Petitioner Janes habeas corpus petition, brief et al filed way back in 2001 within
30 days due the prejudice aid injustice Petitioner Janes suffered via Respondent's
fraud, an unwarranted US District Court order and unjustified magistrate Report and
Recommendation (R&R) of Stay and Obey. See, A.55 in Appendix E.
Though the Respondent was ordered to respondent by April 10, 2017, an order was
egregiously ignored by the Respondent and the magistrate, Who then used a pleading
filed by Petitioner James on April 14, 2017 (i.e. four days past the April 10, 2017
deadline) as the basis to pretend Petitioner James was asking to Amend the Habeas
Corpus pleading again for no reason, when the Petitioner was merely asking the US
District Court to give him instruction about which way to proceed since Respondent was
_ 4 ,<foy5 tevpnd t thq 3Q ,davs. and that only if the US District Court found Petitioner
firT A.53 Is unsigned and undated, thereoy rendering tne PB&ugan Court of Appeals without jurisdiction to even
enter A.42 and A.43 based on the Tiadran v Tiednan, 400 Mich 571, 577 (1977) rule, arHouilec^ed in the 6th
Circuit Court of Appeals Atlanta Richfield v Monarch Leasing Company, 84 F3d 204 <<6th Cir. 1995). The
Respondent realizing the significance of the unsigned and undated order fraudulently manufactured a document
Carder) thart is signed and dated but that document fails to comply with 28 USC § 2249 CLERK CERTIFIED TRUE GOFY
on the front of it in spite of purporting to be an exact duplicate of A.53, the unsigned and undated orefer of
the trial court, uhkh contains the 28 USC § 2249 CLERK'S CERTIFIED TRIE COPY on its face. Originally the
magistrate fond the inoonsistHncy to be significant and important, than order the Respondent to answer. The
Respondent objected and refused to answer. Sse, A.54, p. 3 in Appendix E.
10

James' issues were somehow inappropriate then Petitioner James would be willing to
Amend the issues to bring them into conformity with the US District Court's
expectations.
The magistrate then, in complete disregard of the March 10, 2017 dated order
allowed the Respondent an addition amount of time without the Respondent showing any
good cause reason to do so, and in complete and callous disregard that the habeas
corpus was originally filed in 2001 and only the Respondent's dual fraudulent
misrepresenations caused the extended delay. Nor did the magistrate consider the fact
the Respondent had had over 18 years to prepare any responses. Without ever notifying
the Petitioner the magistrate was granting the Respondent extra time to file an answer
the Respondent was allowed to file a frivolous and verbose pleading saturated with
deception, misrepresentations et al on November 18, 2018 that failed to deny that the
Petitioner's allegations were true.
Finally, the magistrate on July 9, 2019 made a R&R to deny Petitioner James' habeas
corpus by merely misrepresenting what the only three eyewitnesses testified to,
ignoring Petitioner James' HC R. 4 annexed Exhibits supporting the constitutional
violation issues raised by Petitioner Jones, as well ignoring Petitioner James' habeas
corpus contentions and arguments. As an example, in spite of all three eyewitnesses
testifying for the state that Petitioner Janes never once aimed or pointed the gun at
the deceased but only fired one shot in the ceiling and to them the death was an
accident, the magistrate found that two of the eyewitnesses (Corrine Cooks and Deborah
Sanders) testified Petitioner James pointed or aimed the gun directly at the deceased's
head then fired a shot at the deceased head, R&R, p. 26, (A.4 in Appendix A); then
further ruled that in spite of Petitioner James alleging the State court's lack of
jurisdiction violated his VI, VIII, XIII And XIV Amendment rights, the magistrate found
Petitioner James could not raise the State court's lack of jurisdiction because it
involved state law. That R&R went on to find that Petitioner James did not need a
11

Faretta bearing on June 20, 1997 when an order was entered for him to proceed in
propria persona because Petitioner James was educated and wrote a letter; the
magistrate refused to address Petitioner James* contention that there was no valid
waiver of an appellate counsel because there was no in court colloquy where the trial
court, before entering that order (A.17), warning Petitioner James of the dangers and
disadvantages of self representation during direct appeal.
The magistrate further refused to address whether the MI. Supreme Court's denial of
Petitioner James' motion for appointment of appellate counsel during direct appeal
(A.44) was either contrary to or an unreasonable application of Douglas v California,
372 US 353; 83 S Ct 814 (1963) as required by 28 USC § 2254(d)(1), but instead
purported to make a de novo review of her own that Petitioner James was not denied
appointment of appellate counsel because he was educated. The magistrate refused to
address Petitioner James' assertion that the State trial court judge successor's
determination that he understood that after the 1999 State Evidentiary Hearing/habeas
corpus proceedings Petitioner James might want to seek an appellate counsel during
direct appeal and the Exhibits (A.36 - A.41) proving Petitioner James sought an
appellate counsel in all the state courts after the 1999 Evidentiary Hearing/Habeas
corpus proceedings was entitled to the 28 USC § 2254(e)(1) PRESUMPTION OF CORRECTNESS.
The magistrate went on to ignore Petitioner James' habeas corpus Exhibits annexed to
the Petition proving that he was denied transcript preparation of the 5 volumes of
transcripts needed for the appeal, that the transcripts had been altered and one
complete voltxne of transcripts (5/22/96 volume) was missing in spite of Petitioner
James presenting A. 18 - A.30 to the court, documents which clearly allowed an inference
that something was awry with the transcripts where court reporter signatures had been
forged, signatures erased etc, etc.
Without even addressing Petitioner Janes* issues the US District Court merely
adopted the magistrate's R&R, equally claiming that the three eyewitnesses testified
12

Petitioner James pointed the gun at the deceased head then fired a shot when there is
no such testimony from those three eyewitnesses (See, A.9 - A. 13), while both the
magistrate and US District Court refused to comment on the fact that the jury admitted
they believed the three eyewitnesses* testimonies that Petitioner James didn't point
the gun at the deceased but fired a warning shot at the ceiling instead of at the
deceased. (See, A.14 - A.15) and each continued to find that malice could be inferred
merely because a gun was involved and that there was no need for Petitioner James to
have actually tried to kill or harm the deceased but a presumption of an essential
element could be inferred because a gun was involved. And though Petitioner James
contended that Michigan's 2d Degree murder statute was unconstitutional on the grounds
of vagueness because it did not in any place define any element of the conduct
prohibited, neither the Magistrate or US District Gourt made any ruling on that issue.
Finally, in spite of Dorn v Lafler, 601 F3d 439 (6th Cir. 2010) and the US 1st, 3rd,
7th, 9th Courts of Appeals, who all held that even were a person to waive their right
to counsel at any stage that waiver is not binding, that person can withdraw the waiver
and reassert the right to counsel, the US Sixth Circuit Court of Appeals absolutely
refused to even acknowledge its own prior Dorn v Lafler binding decision, refusing to
even acknowledge or even comment upon that binding precedent.
BASIS FOR GRANTING CERTIORARI
Ihe present case before this US Supreme Court epitomizes federal court decisions
that have so far departed from the accepted and usual course of judicial proceedings as
to call for an exercise of United States Supreme Court's Supervisory power.
In addition it has been held that certiorari would be granted when any of the
following circumstances exist:
i. There is a conflict among federal circuit courts of appeals; ii. There is a conflict
among different panels of a single court of appeals; iii. There is conflict between a
decision of the United States Supreme Court and a subsequent decision of a federal
court of appeals; iv. There is an important and recurring constitutional question
involved in the case.
13

The present case before this United States Supreme Court falls into the category of
each of those reasons for granting certiorari.
A. CONFLICT AMONG FEDERAL CIRCUIT COURTS OF APPEALS AND WHETHER A WAIVER OF COUNSEL IS
BINDING TO THE DEGREE THAT THE DEFENDANT OR APPELLANT CAN NOT REASSESS THEIR EARLIER
DECISION AND THEN REASSERT THE CONSTITUTIONAL RIGHT
In the present case before this US Supreme Court the conflict between what this
Single US Sixth Circuit COA of Appeals Judge (viz: Karen Nelson Moore), the Rehearing
Panel (Boggs, Stranch and Bush); the US District Court (Judge Paul Maloney) and the
ex-Magistrate (Ellen S. Carmody) all held about a waiver^of the constitutional right to
counsel can not be re-evaluated and the XIV Amendment right to appellate counsel
reasserted is in conflict with what the US 1st Circuit Court of Appeals in US v
Proctor, 166 F3d 396, 401 (1st Cir. 1999); the US 2nd Circuit Court of Appeal in US v
Kerr, 752 F3d 206, 221 (2d Cir. 2014); the US 3rd Circuit Court of Appeals in US v
Leveto, 540 F3d 200, 207 (3rd Cir. 2008); the US 4th Circuit Court of Appeals in US v
Holmen, 586 F2d 322 , 324 (4th Cir. 1978); the US 5th Circuit Court of Appeals in US v
Pollani, 146 F3d 269, 270, 273 (5th dr. 1998); the US 7th Circuit Court of Appeals in
US v Fazzini, 871 F2d 635 , 643 (7th dr. 1989); the US 9th Circuit Court of Appeals in
Robinson v Ignacio, 360 F3d 1044 (9th Cir. 2004) and the US 11th Circuit Court of
Appeals in Horton v Dugger, 895 F2d 174 (llth Cir.1990) all hold. Each of those US
Circuit Court of Appeals hold a waiver of any constitutional right to counsel is not
binding. A person can reassess their earlier decision then reassert the Constitutional
right to counsel waived earlier.
B. CONFLICT AMONG DIFFERENT PANELS OF THE SAME 6TH CIRCUIT COURT OF APPEALS ABOUT
WHETHER A WAIVER OF COUNSEL IS BINDING OR NOT ON THE DEFENDANT OR APPELLANT
According the 6th Circuit Court of Appeals Karen Nelson Moore and the Panel of
m this u5
Court is raiarcfed and should tate note that there is no transcript remit! fact shooing
FtetitLoner James uaived the LB Cnretituticnal XIV Arendnsnt right to an^appellate axrael then A.17 ues
arbitrarily entered an ine 20, 1997, but there is a transcript regard fact establishing that Petitioner James
only waived that US Constitution XIV Amenrfrent right to an appellate axnsel far the limited p fp-ngos of the
Mirth 12, 1997 - Jjly 22, 1999 State Court Evidentiary Haaring/Hsteas Corpus pmnRprHng anH the State court
Jxlge tnferatHid Fbtitianer Janes waivad the right far the limited purposes of those onxsedinas. but ndaht
want an appellate axnsel during appeal after those
A.%.
14

Boggs, Bush and stranch once an appellant waives the right to appellate counsel that
waiver is binding and he or she can not reassess that decision then reassert the
constitutional right to counsel. Yet the 6th Circuit Court of Appeals in Dorn v Lafler,
601 F3d 439 (6th Cir. 2010) specifically held:
...a prisoner has the right to appellate counsel in an appeal
granted as of right. See Douglas v California, 372 US 353, at
355-56; 83 S Ct 814...The fact that Dorn may have initially waived
his right to appellate counsel does not matter. Dorn may have
re-valuated this decision, in which case be may have been entitled
to appointment of counsel pursuant to Douglas...we are granting
Dorn's habeas petition...Michigan will have to either reinstate his
appeal as of right or release him."
C. CONFLICT AMONG THE US CIRCUIT COURTS OF APPEALS ABOUT WHAT CONSTITUTES A VALID
WAIVER OF THE RIGHT TO AN APPELLATE COUNSEL
------In the present case there exists a conflict between what the single US 6th Circuit
Court of Appeals Judge (Karen Moore), the US 6th Circuit Court of Appeals rehearing
panel (Boggs, Stranch and Bush); the US District Court and US magistrate (See, A.l A.4) all held about what constitutes a valid waiver of the right to an appellate
counsel. They all held a valid waiver of the right to counsel does not require a court
to conduct an in court colloquy between the court and the appellant, defendant or
Petitioner warning about the dangers of self representation. But the US 1st Circuit
Court of Appeals in US v Kneeland, 148 F3d 6 (1st Cir. 1998); the US 3rd Circuit Court
of Appeals in US v Jones, 452 F3d 223, 232-34 (3rd Cir. 2006); the US 5th Circuit Court
of Appeals in US v Kizzie, 150 F3d 497 (5th Cir. 1998); the US 8th Circuit Court of
Appeals in Gilbert v Lockhart, 930 F2d 1356, 1359-60 (8th Cir. 1991); the US 9th
Circuit Court of Appeals, in Snook v Wood, 89 F3d 605 (1996); Hendricks v Zennon, 993
F2d 664, 669-70 (1993); US v Balough, 820 F2d 1485 (9th Cir. 1987); the US 11th Circuit
Court of Appeals in Hall v Moore, 253 F3d 624 (11th Cir. 2001) all held otherwise. They
all held there must be a Faretta v California, 422 US 806; 95 S Ct 2525 (1975) type
record made in the trial court in which the waiver is occurring and in the colloquy
record the court must have advised the appellant, defendant or petitioner about the
15

dangers and disadvantages of self representation or else that waiver is not valid.

RVkSSSSK?

DIFFERENT PANELS OF TOE 6TH CIRCUIT COURT OF APPEALS OVER WHAT

CONSTITUTES A VALID WAIVER OF TOE RIGHT TO ANY COUNSEL

Every single US 6th Circuit Court of Appeals panel, Hall v Ayers, 900 F3d 829 (6th
Cir. 2018); US v Gooch, 850 F3d 286, 289 (6th Cir. 2017); Akins v Easterling, 648 F3d
380 (6th Cir. 2011); James v Brigano, 470 F3d 636 (6th Cir. 2006); Fowler v Collins,
253 F3d 344 (6th Cir. 2001); US v McDowell, 814 F2d 245 (6th Cir. 1987), held that in
any court, before a waiver is considered valid there rjwst be shown the defendant,
appellant or petitioner was given an in court warning about the dangers and
disadvantages of self representation at the specific time the waiver is occurring. The
6th Circuit Court of Appeals Judge Karen N. Moore and the panel of Boggs, Stranch and
Bush refused to follow those earlier 6th Circuit Court of Appeals' panels decisions
when they held no such in court colloquy record showing the court gave the warnings
about the dangers and disadvantages of self representation had to be established to
make the waiver valid.
OF

STATCS SUPRENE 00URT AB0OT WHAT CONSTITUTES A VALID WAIVER

Like every other US Court of Appeals panels, excluding the 6th Circuit Court of
Appeals Karen N. Moorejl
Stranch and Bush, the United States Supreme Court
mandated there must be evidence that at the time of the waiver there was transcript
record showing that defendant, appellant or petitioner was advised in open court about
the dangers and disadvanges of self representation or else there is not a valid waiver.
That was the holding in Von Moltke v Gillies, 332 US 708; 68 S Ct 316 (1948); Faretta v
California, 422 US 806, 95 S Ct 2525 (1975); Patterson v Illinois, 487 US 285; 108 S Ct
2389 (1988); Me Dowell v US, 484 US 980; 108 S Ct 478 (1988); Iowa v Trovar, 541 US 77,
92; 124 S Ct 1379 (2004).
COUKr^UT
APPEALS AND TOS UNITED STATES SUPREME
UJUKi AdUUI WHETHER A HABEAS CORPUS PETITIONER CAN RAISE A STATE COURT'<? t aov oe
JURISDICTION DURING HABEAS CORPUS PROCEEDINGS
^ S LACK °F
16

According to A.l

A.4 the US 6th Circuit Court of Appeals is upholding a US
District Court decision that has so far departed from the accepted and usual course of
judicial proceedings that it requires this United States Supreme Court to exercise its
supervisory powers, when the US District Court and US magistrate unjustifiably
determined (in contradiction to the United States Supreme Court's decisions and What 28
USC § 2254(d)(4) once so clearly declared) that Petitioner Janes can't not raise a
jurisdictional defect or void judgment of a State court during federal habeas corpus
proceedings in spite of Petitioner James alleging the State court's lack of
jurisdiction caused the Petitioner to suffer a violation of his US Constitution VI,
VIII, XIII, XIV Amendment rights.
Petitioner James argued his VI, VIII, XIII and XIV Amendment rights were being
violated because the State court did not have competent jurisdiction of the case People
v Schenvisky James, 96-000912 and the Michigan Court of appeals lacked jurisdiction
after the 1999 State court evidentiary hearing/habeas corpus proceedings due to the
trial court's failure to sign and date the order. The US District Court and Magistrate,
with the 6th Circuit Court of Appeals’ Karen Nelson Moore, Danny Bogg, Stranch and Bush
tacitly authorizing it, all held the jurisdiction of a State court can not be
challenged during habeas corpus because it involved state law only.
These findings stand in total conflict with the previous 28 USC § 2254(d)(4) and
vhat the United States Supreme Court said in Stone v Powell, 428 US 465 ; 96 S Ct 3037
(1976) where the US Supreme Court held that every since 1867 a state prisoner like
Petitioner James could raise a state court lack of jurisdiction in a habeas corpus
proceeding if it was based on a violation of a United States Constitutional right or
Federal law. Former 28 USC § 2254(d)(4) Is cited In such US Supreme Court decisions
(laws) as Jefferson v Upton, 560 US 284 , 291; 130 S Ct 2217 (2010); Thompson v Keohane,
516 US 99; 116 S Ct 457 (1995); Sumner v Mata II, 455 US 591; 102 S Ct 1303 (1982).
Farther the fact that a Jurisdictional defect can be raised at anytime and is never
17

subject to waiver can never be denied vfoen the US Supreme Court has repeatedly made
that point of law absolutely clear. Arbaugh v Y & H Corp, 546 US 500; 126 S Ct 1235
(2006); US v Cotton, 535 US 625; 122 S Ct 1781 (2002); Freytag v Comm'ner IRS, 501 US
868; 111 S Ct 2631, 2634 (1991). The US Supreme Court made it clear that any judgment
entered by any court without jurisdiction is void and nothing except an ultra vires
ruling. Ruhrgas AG v Marathon Oil Co., 526 US 574; 119 S Ct 1563 (1999); Citizen For
Better Environment v Steel Co., 523 US 81, 86; 118 S Ct 1003 (1998). The US Supreme
Court leaves no room to doubt this point of law. Scott v McNeal, 154 US 34, 46; 14 S Ct
1108 (1894); Zerbst v Johnson, 304 US 458; 58 S Ct 1019 (1938)
G. CONFLICT BETWEEN THE 6TH CIRCUIT COURT OF APPEALS AND THE UNITED STATES SUPREME
COURT IN ITS INTERPRETATION OF 28 USC § 2254(d)(1) MEANING.
According to the US Supreme Court the interpretation of 28 USC § 2254(d)(1) is
whenever a State court makes an adjudication on a constitutional issue the Habeas
Corpus court is required to determine whether or not that State court decision was
either "contrary to" or an "unreasonable application" of a United States Supreme Court
case law decision. The term clearly established federal law in 28 USC § 2254(d)(1) is a
reference to decisions or holdings of the US Supreme Court that were in existence at
the time of the State Court decision, and it includes the legal principles, rights and
standards set forth in the US Supreme Court *s decisions. Panetti v Quarterman, 551 US
930; 127 S Ct 2892 (2007); Lockyer v Andrade, 538 US 63, 71; 123 S Ct 1167 (2003);
Williams v Taylor, 529 US 362, 412; 120 S Ct 1495 (2000); Bell v Cone I, 535 US 685,
694; 122 S Ct 1843 (2002).
In the present case the Michigan Supreme Court made an adjudication on Petitioner
James' Motion For Appointment of Appellate Counsel during direct appeal by denying that
motion after considering it. A.44, Appendix D. Petitioner James argued in the Federal
Habeas Corpus proceeding that not only was this a XIV Amendment violation but also that
denial of appellate counsel during direct appeal was contrary to Douglas v California,
372 US 353; 83 S Ct 814 (1963); Penson v Ohio, 488 US 75; 109 S Ct 346 (1988), Smith v
18

Robbins, 528 US 259; 120 S Ct 746 (2000); Evitts v Lucey, 469 US 385; 105 S Ct 830
(1985), and constituted a denial of due process of law and a denial of equal protection
of the law, as expressed by the US Supreme Court in Halbert v Michigan, 545 US 605,
616-17; 125 S Ct 2582 (2005); Evitts v Lucey, 469 US 387; 105 S Ct 830, 834 (1985).
The US magistrate ignored the language of 28 USC § 2254(d)(1), then alleged to have
conducted her own de novo review and found that Petitioner James was not denied
appointment of appellate counsel, and absolutely refused to make a determination about
whether A.44 was contrary to or an unreasonable application of Douglas v California,
372 US 353; 83 S Ct 814. Ihe US District Court adopted the magistrate R&R and the US
6th Circuit Court of Appeals Karen Moore, Bqggs, Stranch, Bush all upheld those US
District Court decisions, but refused to comment upon whether or not A.44 in Appendix D
was contrary to or an unreasonable application of those US Supreme Court decisions
controlling the matter.
STATES CIRCUIT court of
INTERPRETATION OF THE MEANING TO 28 USC § 2254(d)(1)

appeals prior

PANELS IN THEIR

The 6th Circuit Court of Appeals Karen Moore and the panel Boggs, Stranch and Bush
up holding the US District Court's adoption of the magistrate R&R's de novo review
instead of following the plain language of 28 USC § 2254(d)(1) and deciding whether or
not the Michigan Supreme Court's denial of appointment of appellate counsel during
direct appeal was in conflict with 6th Circuit Court of Appeals prior panels and other
US Court of Appeals panels, which each interpreted 28 USC § 2254(d)(1) contrary to and
unreasonable application clauses to mean the habeas corpus court had an obligation to
make a determination about whether a State court adjudication on the merits was
contrary to or an unreasonable application of a US Supreme Court decision.
The US 1st Circuit Court of Appeals in Brown v Ruane, 630 F3d 62, 71 (1st Cir.
2011); the US 2nd Circuit Court of Appeals in Rosario v Ercole, 601 F3d 118, 126 (2d
Cir. 2010); the US 3rd Circuit Court of Appeals in Rountree v Balicki, 640 F3d 530,
543-44 (3rd Cir. 2011); the US 5th Circuit Court of Appeals in Clark v Thaler, 675 F3d
19

410, 421 (5th Cir. 2010); the 6th Circuit Court of Appeals in Davis v Lafler, 658 F3d
525, 535-36 (6th Cir. 2011); the US 7th Circuit Court of Appeals in Brown v Finnan, 598
F3d 416, 426 (7th Cir. 2013); the US 8th Circuit Court of Appeals in Storey v Roper,
603 F3d 507, 516 (8th Cir. 2010); the US 9th Circuit Court of Appeals in Miller v
Blackletter, 525 F3d 890, 895 (9th Cir. 2008); the US 10th Circuit Court of Appeals in
Byrd v Workman, 645 F3d 1159, 1171 (10th Cir. 2011); the US 11th Circuit Court of
Appeals in Ferguson v Sec'y Fla Dept, of Corr, 716 F3d 1315 (llth Cir. 2013) all
interpreted 28 USC § 2254(d)(1) to mean the reviewing habeas court was obligated to
determine if a State adjudication was "contrary to" US Supreme Court decisions.
I. CONFLICT BETWEEN UNITED STATES CIRCUIT COURTS OF APPEALS OVER WHETHER A HABEAS
CORPUS COURT CAN MAKE ITS OWN CREDIBILITY DETERMINATIONS OF WITNESSES TESTIMONIES WHEN
IT EVALUATES AN INSUFFICIENCY OF THE EVIDENCE HABEAS CORPUS CLAIM
According to the R&R, p. 26 (A.4) and the US District Court, p. 3 (A.3) the
magistrate can ignore the eyewitnesses testimonies and make her own credibility
determination about

the

those three eyewitnesses*

testimonies.

The magistrate

illogically, unjustifiably and in complete defiance of the transcript record facts (A.9
- A.11) found the eyewitnesses testified Petitioner James aimed the gun at the deceased
then shot him in the head, then discounted the eyewitnesses* testimonies that the death
of the deceased was an accident. The US 6th Circuit Court of Appeals upheld the
decisions in spite of A.9 - A.11 all proving the eyewitnesses did not testify to what
the US magistrate and US District Court alleged they testified to. The US 6th Circuit
Court of Appeals in US v Russell, 109 F3d 552, 558 (6th Cir. 1999); the US Ninth
Circuit Court of Appeals in US v Talley, 164 F3d 989, 999 (9th Cir. 1999) and US First
Circuit Court of Appeals in US v Cadales-Luna, 632 F3d 731 (1st Cir. 2011) all held
that a court doesn't and can not make its own independent credibility determination
when it evaluates sufficient of evidence, and it must simply give credit to what the
eyewitnesses testified to.
J. CONFLICT WITH THE UNITED STATES SUPREME COURT ABOUT WHETHER A HABEAS CORPUS
^^M&S^tBo^ES 70 mKE m ^ CREDIBILI1Y DETERMINATION TO CONTRADICT THE
20

The United States Supreme Court in both Jackson v Virginia, 443 US 307 ; 99 S Ct
2781, 2789 (1979) and Herrera v Collins, 506 US 383 , 401; 113 S Ct 853 , 861 (1993) held
that any reviewing court is not allowed to makes its own subjective opinion or
determination about guilt or innocence or witness credibility in the manner that the US
magistrate, US District Court and 6th Circuit Court of Appeals did when they discounted
all three eyewitnesses' testimonies that Petitioner James never pointed or aimed the
gun at the deceased when the warning shot was fired at the ceiling and that the death
was an accident. Further, the fact the jury said they believed those eyewitnesses'
testimonies that the death was an accident(A,14, A.15) should have decided the matter
nicely.
K. CONFLICT BETWEEN THE 6TH CIRCUIT COURT OF APPEALS AND THE UNITED STATES SUPREME
COURT ABOUT WHETHER MALICE CAN BE INFERRED OR CONCLUSIVELY PRESUMED FROM THE USE OF A
DANGEROUS WEAPON
The US magistrate and US District Court, while relying on a non published state
court opinion, People v Jordan, and pretermitting parts of that decision held that
malice could be simply inferred from the use of a dangerous weapon. The US 6th Circuit
Court of Appeals upheld those decisions, thereby tacitly concurring. The United States
Supreme Court, however, held that malice can not be presumed from the use of a
dangerous weapon. Yates v Aiken, 484 US 211; 108 S Ct 534 (1988). The US 6th Circuit
Court of Appeals in both Tanner v Yukins, 887 F3d 661 (6th Cir. 2017) and Duncan v US,
552 F3d 442 (6th Cir. 2009) equally held that malice can not be presumed because a
dangerous weapon was involved.
L. CONFLICT BETWEEN THE US 6TH CIRCUIT COURT OF APPEALS AND UNITED STATES SUPREME COURT
ABOUT WHAT CONSTITUTES SECOND DEGREE MURDER AND WHETHER A STATE CAN CREATE A CONCLUSIVE
PRESUMPTION OF AN ESSENTIAL ELEMENT MALICE BASED ON CONDUCT THAT DOES NOT CONSTITUTE
MALICE
In the present case, the US magistrate, US District Court Judge, 6th Circuit Court
of Appeals jurists Karen Nelson Moore, Boggs, Strancb, Bush are all, either directly or
indirectly via tacit authorization, making judicial decisions so far removed from the

21

normal course of judicial procedures as to call for intervention by the US Supreme
Court, when they each believe a magistrate can deliberately misrepresent the unanimous
testimonies of the only three eyewitnesses, When they each testified with their fingers
pointed toward the courtroom ceiling while demonstrating how Petitioner James held the
gun when he fired the one shot and that the decease's death was an accident. How can
the magistrate conduct a de novo review and just basically call the eyewitnesses a lie,
then make her own determination that those eyewitnesses testified Petitioner James
pointed the gun at the decedent's head and fired the shot and they may have said the
death was an accident? Each of those jurists continued to hold that a second degree
murder can be established by a conclusive presumption of malice because a gun was
involved. They each either directly or indirectly hold that a second degree murder can
be established without any proof that Petitioner James either intended to kill or
injure the decedent.
The collective decisions of each of those unreasonable jurists from the US District
Court and Karen Nelson Moore/w the Boggs, Stranch and Bbsh panel is in conflict with
the decision of the United States Supreme Court in its clear language about what
conduct was required to commit a second degree murder because the US Supreme Court, as
does every single State in the United States, all hold that in order to establish a
second degree murder there must be evidence of malice, which is the intent to kill or
harm the deceased. The following US Supreme Court cases firmly state there must be
evidence of every single element of an offense in order to sustain a conviction. In re
Winship, 397 US 358, 363-64; 88 S Ct 1078 (1968); Vachon v New Hampshire, 414 US 478,
480; 94 S Ct 664-65 (1974); Bunkley v Florida, 538 US 838; 123 S Ct 2020 (2003); Fiore
v White, 532 US 225; 121 S Ct 712 (2001); Jackson v Virginia, 443 US 307; 99 S Ct 2781
(1979).
While such US Supreme Court decisions as Hopkins v Reeves, 524 US 88; 118 S Ct 1895
(1998); Lowenfield v Phelps, 484 US 231; 108 S Ct 546 (1988); Estelle v McGuire, 502 US
22

62; 112 S Ct 475 (1991); US v Frady, 456 US 152; 102 S Ct 1584 (1982); Sandstrome v
Montana, 442 US 510; 99 S Ct 2450 (1979); Morgan v Henderson, 426 US 637; 96 S Ct 2253
(1976) all hold that in order for any murder to be proven there must be evidence there
was an intent to kill the person who died or else there could not have been a murder.
US Supreme Court decisions like Sandstrom v Montana, 442 US 510; 99 S Ct 2450 (1979)
absolutely foreclose any creating a conclusive presumption of an essential element of
crime based on something that does not establish the element of that crime.
Further, any of those jurists from the US District Court and US 6th Circuit Court of
Appeals has yet to address Michigan’s Involuntary Manslaughter with a gun statute, MCL
750.329 and the case laws surrounding it like People v Smith, 478 Mich 64 (2009);
People v Heflin, 434 Mich 482 , 497 (1990); People v Doss, 406 Mich 90 (1980); People v
Wade, 283 Mich App 462 (2009); People v Duggan, 115 Mich App 269 (1982), which each
require when interpreting MCL 750.329 that the weapon or gun must be pointed or aimed
at the deceased when he or she is killed by the shot but without malice when the gun
was aimed or pointed at the deceased in order to sustain an involuntary manslaughter
with a firearm conviction in Michigan. Each of those jurists have yet to explain how
every eyewitness can testify under oath Petitioner James never pointed or aimed the gun
at the deceased, and the jury believed their testimonies (A.14, A.15) yet Petitioner
James was convicted of Second Degree murder when the State couldn't even prove
Petitioner James committed even the lesser involuntary manslaughter with a firearm per
MCL 750.329.

SsSSs™"™*5 sssas’s
TWnS^S7T
BEING
ABLE TOINGIVE opinion in toe field he or
SHE HAS TOE PA?TTnTT
PARTICULAR SKILL,
KNOWLEDGE AND
TRAINING
In the present case Petitioner Janes brings to the Court's attention that the United
States Supreme Court in Carmichael v Kurriio Tire Co., 526 US 137; 119 S Ct 1167 (1999);
Daubert v Merrill Dow Pharmeuticals, 509 US 579; 113 S Ct 2786 (1993); General Electric
Co. v Joiner, 522 US 136, 142; 118 S Ct 512 (1997) as well as the US 6th Circuit Court
23

of Appeals in Lee v Smith & Wesson Corp, 760 F3d 523 , 527 (6th Cir. 2014); Greenwell v
Boatwright, 184 F3d 492, 497 (6th Cir. 1997) all held When interpreting either FRE or
MRE 702 an expert witness can only give an opinion in the area in which that expert
qualified as ap expert based on a knowledge, training and education. Here a medical
examiner who was only qualified as a forensic pathologist and nothing else (A.56 and TT
I» Pp» 135-136) is testifying in the field of ballistics, firearms, munitions and
Evidence Technology. In fact, his testimony (not an opinion) is altered after trial to
counteract what Petitioner James was trying to argue on appeal about insufficient
evidence, so that the expert’s testimony would contradict the three eyewitnesses'
testimonies in spite of the fact this medical examiner does not have any knowledge,
skill or training in the areas of ballistics or evidence technology. A.56/w TT I, Pp
135-136.
The US magistrate R&R and US District Court opinion, though somewhat acknowledging
the medical examiner's deficiencies had the audacity to state that in spite of there
being no evidence of close range firing due to the absence of any gun powder residue
around or in the wound, P.E.T., p. 6; TT I, Pp. 137, 138, 141, 144, which would be the
only way Davidson could give an opinion that a gun was held directly in front of the
decease's face when the shot was fired, TT I, p. 147 the medical examiner could give
that opinion about the gun being held in front of the decease's face When the shot was
fired, TT I, p. 147, because eyewitnesses Deborah Sanders and Corrine Cooks testified
the Petitioner aimed and pointed the gun at the decease's head when he fired the shot.
R&R, p. 33. But there is no such testimony from Sanders or Cooks!!

Admittedly the

medical examiner didn't know what position the Petitioner was in nor the deceased when
the shot was fired TT I, p. 142. And the US magistrate, US District Court and 6th
Circuit Court judges Moore, Boggs, Stranch and Bush all refuse to acknowledge or even
comment on Petitioner James supplying the testimony of Dr. David A. McMaken from State
v Bechley about the inability of the medical examiner to give an opinion about the
24

position of the gun, the person with the gun or the person who got shot.
But what is the most troubling is the fact each of those hereto mentioned judges
refuse to acknowledge this sane medical expert was discharged from the Wayne County
Medical Examiner's office for his unethical conduct and presenting false evidence and
testimony for the State where over 50 of his cases had to be reversed and investigated.
A. 57. Those judges refuse to acknowledge that this medical examiner is the one who
created a fictitious medical examiner autopsy report page 4 (A.58) to contradict the
eyewitnesses' testimonies and to contradict the original medical examiner page 4,
(A.59) due to the fact A.59 is consistent with the eyewitnesses' testimonies and the
Petitioner's ricochet theory of case phenomenon due to the bizarre shaped bullet
entrance wound in A.59 vs the black mark bullet entrance would hold of A.58.
Each of those federal judge refused to acknowledge that this same medical examiner
absolutely refused to admit the fact the bullet removed from the decease's head was
deformed in spite of that fact being read into the record at the preliminary
examination P.E.T., p. 7. His medical examiner report shows the bullet was deformed
(A.60, A.61, A.62) but when called upon to testify to what his medical examiner report
states he refused to use the word deformed in description of the bullet. (A.63 TT I,
Pp. 139, 142). With the bizarre shaped bullet entrance woimd the point is the bullet
was deformed before it entered the decease's skull because it struck some other object
or objects before striking the deceased, which in turn corroborated the eyewitnesses'
testimonies and Petitioner James' testimony. The bizarre shaped bullet entrance wound
was highly significant in the case. See: A.64.
N. CONFLICT BETWEEN THE LOWER FEDERAL COURTS AND US SUPREME COURT OVER WHETHER A STATE
LEGISLATURE HAS AN OBLIGATION TO DEFINE EVERY ELEMENT OF A CRIME AND IT IS NEVER THE
JUDICIARY'S DUTY TO DEFINE THE ELEMENTS OF ANY CRIMINAL OFFENSE
Petitioner James' challenge to the constitutionality of the Michigan 2nd Degree
Murder statute, on the grounds of void due to vagueness and a violation of the
separation of powers doctrine and due process of law went unanswered and minimized by

25

the federal lower judiciary. They each continued to claim that Michigan's 2nd Degree
Murder statute does not have to contain the element of the crime so that the public
will know what conduct is specifically forbidden like most other statutes, and that
it's alright if the Legislature has not defined the elements of MCL 750.317 but instead
the Michigan judiciary who is defining the elements of second degree murder, and doing
it to a manner never intended by the Legislature where that Michigan judiciary claims
that 2nd degree murder can be committed without ever having any intent to harm or kill
being the only thing necessary. Their claim is 2nd degree murder can be accomplished if
a person accidently commits a death or acts in a way that was just reckless but without
any intent to kill or harm. But the US Supreme Court repeatedly held it is only the
Legislatures duty to define by statute the elements of any crime. See, McMillian v
Pennsylvania, 477 US 79;

106 S Ct 2411, 2415 (1986) holding: ” • • • the state
legislature s definition of the elements of the offense are diposititive • • • " The

Legislature of Michigan has "the primary authority for defining • • • the criminal law." US
v Lopez, 514 US 549, 562; 115 S Ct 1624, 1631 (1995); Brecht v Abrahamson, 507 US 619,
635; 113 S Ct 1710, 1720 (1993). " • • • legislateure. NOT COURTS, define criminal
liability." Crandon v US, 494 US 152, 158; 110 S Ct 997, 100102 (1990); Uparata v US, 472 US 419, 427; 105 S Ct 2084, 2089 (1985).
Furthermore, accordirg to the United States Supreme Court a "conviction fails to
comport with due process if the statute under which it is obtained • • « is so standardless
that it authorizes • • • discriminatory enforcement." US v Williams, 553 US 285; 128 S Ct
1830 (2008). " • • • to satisfy due process," according to the US Supreme Court, "a penal
statute MUST define the criminal offense • • • " Skilling v US, 561 US 238; 130 S Ct 2896
(2010). Michigan's MCL 750.317 has no real standard and does not define one element of
the crime 2nd degree murder where it merely states: "All other kinds of murder shall be
murder of the second degree • • * " This does not "explicitly convey what it outlaws," US v
Bennett, 329 F3d 769 (10th Cir. 2003) and must be struck down as void due to vagueness
26

and an inherent denial of due process where it fails to "define the criminal offense”
2nd degree murder ’Vith sufficient definiteness • • • " Skilling v US, 561 US 358? 130 S Ct
2896 (2010).

STATUTE DOES NOT DESCRIBE OR DEFINE ONE SINGLE ELEMENT OF 2ND DEGREE MURDER
If the reasonable doubt standard of James Jackson v Virginia has always been
dependent on how a State Legislature defined the offense in question, which is well
settled by the US Supreme Court, Patterson v New York, 432 US 197j 97 S Ct 2319
(1977); Clark v Arizona, 548 US 735, 748; 126 S Ct 2709, 2748 (2006); Harris v US, 536
US 545, 557; 122 S Ct 2406, 2414 (2002); Almendarez-Torrez v US, 523 US 224, 239; 118 S
Ct 1219, 1229 (1998); Montana v Egelhoff, 518 US 37, 43; 116 S Ct 2013, 2017 (1996),
how can Michigan’s Legislature fail to enact MCL 750.317, the 2nd Degree murder statute
without defining not a single element of that offense and that Legislative deficiency
not be an inherent violation of due process or law and constitute a statute that is
void due to vagueness?
If the US Supreme Court made it absolutely clear that it is incumbent upon the
Michigan Legislature to enact statute that defines the elements of 2nd degree murder,
McMillian v Pennsylvania, 477 US 79, 85 S Ct 106 S Ct 2411, 2415 (1986) and
specifically states it’s not the Judiciary’s function to define criminal liability,
Crandon v US, 494 US 152, 158; 110 S Ct 997, 1001-02 (1990); Uparata v US, 472 US 419,
427; 105 S Ct 2084, 2089 (1985), how can Michigan be allowed to do what the US Supreme
says it can not do, which is allow the Judiciary to define the elements of 2nd degree
murder and do so in a manner never intended by the Michigan Legislature? If every
single State, according to the US Supreme Court, defines any murder as necessarily
requiring an intent to kill or an intent to harm, what gives the Michigan Judiciary the
right to hold that 2nd Degree murder does not require just the intent to kill or injure
death resulting? According to the US Supreme Court it repeatedly held that in order for
27

there to have been a valid 2nd Degree murder conviction there must evidence that there
an intent to kill or harm according to the Legislative enactment. Hopkins v Reeves, 524
US 88; 118 S Ct 1895 (1998); Estelle v McGuire, 502 US 62; 112 S Ct 475 (1992);
Lowenfield v Phelps, 484 US 231; 108 S Ct 546 (1988); US v Frady, 456 US 152; 102 S Ct
1584 (1982); Sandstrome v Montona, 442 US 510; 99 S Ct 2450 (1979); Morgan v Henderson,
426 US 637; 96 S Ct 2253 (1976). Michigan's aberration of law needs to be addressed by
this United States Supreme Court once and for all.
CONCLUSION
Essentially this case before the United States Supreme Court epitomizes the
systematic and utter disregard for the life of a man from the race mlsncmered as black.
And that the United States Constitutional rights supposedly enjoyed by people of that
race erroneously referred to as black are but a gossamer web or broken dreams and
fictitious. This case exemplifies the brokenness of a system that first allows
conviction of second degree murder to be obtained without any probable cause
determination ever being made at the preliminary examination to allow a bind over to
the State circuit Court, where the black man is put on trial by a trial court acting
without any jurisdiction to do so because there was never any return filed, no felony
information filed, no notice of enhancement filed, But than Michigan not content with
that farce of a trial occurring because it left the result of the only three
eyewitnesses coming to trial to testify that Petitioner James never (not once) pointed
or aimed the gun at the deceased but instead fired

warning shot into the ceiling and

vfcat they witnessed was an accidental death. To worsen the matter, the very jury that
was duped into convicting Petitioner Janes of 2nd degree murder indicated they believed
the testimonies of those three eyewitnesses and don’t believe Petitioner James aimed or
pointed the gun at the deceased. And with all that Petitioner James is convicted of 2nd
degree murder without any proof of malice, the requisite element of the crime 2nd
degree murder.
28

But the State was not content with that injustice and due process violations, the
State went on to refuse to appoint Petitioner James an appellant counsel after the
first appellate counsel withdrew. Then there is no evidence of any valid waiver of the
right to an appellate counsel at any time from June 20, 1997 to March 12, 1999, where,
afterwards Petitioner James waives the right to an appellate counsel for the limited
purposes of some State evidentiary hearing and habeas corpus proceedings, with the
trial judge actually stating on record he understood Petitioner James was only waiving
the right to an appellate counsel for those limited purposes of an evidentiary hearing,
and every subsequent attempt by Petitioner James to obtain counsel after those State
evidentiary hearing and habeas corpus proceedings is to no avail until finally the
Michigan Supreme Court literally denies Petitioner James the appointment of an
appellate counsel.
Then when Petitioner James comes to the federal court with the issues, that federal
court engages in what a panel of reasonable jurists from the 10th Circuit Court of
Appeals called

a"sham" Rogers v Johnson, 917 F2d 1283 (10th Cir. 1993) for habeas

corpus, where the US District Court employes all type of devices to cause a 20 year
delay (suspend) the writ of habeas corpus

to prevent from ruling on the issues the

State refused to make an adjudication on save the one, appointment of appellate
counsel.
The federal habeas court then goes on to completely and totally misrepresent the
testimonies of eyewitnesses, claims that Petitioner James can*t raise a jurisdictional
defect in the federal habeas corpus proceedings, refuses to afford the presumption of
correctness to a state court judge*s 1999 findings that he understood Petitioner James
was waiving the right an appellate counsel only for the limited purposes of those
hearings/habeas corpus but may want to seek another appellate attorney on appeal. That
federal judiciary in Michigan then went on to either refuse to address the issues
raised by Petitioner James and done so in a perfunctory manner without any regards for
29

Petitioner James issues supporting affidavits, arguments and habeas corpus rule 4; 28
USC § 2247; FR Civ P. 10(c) probative exhibits.
Submitted,

2

SdhenviskvX fes
4813 Devonsni# Rd.
Detroit, MI. 48224
(313) 946-7907
Schenjgetjusticenow@yahoo.com
January 13, 2021

30

